APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 8, 2021) ........................... 1a
District Court of Tulsa County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (November 12, 2020) ................................... 12a
Agreed Stipulation
(September 25, 2020)........................................ 18a
Letter from Cherokee Nation
(September 9, 2020).......................................... 21a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 23a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 8, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JEFFREY [sic] ARCH JONES,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-1245
An Appeal from the District Court of Tulsa County,
the Honorable Tracy L. Priddy District Judge
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
HUDSON, JUDGE:
Jeffery Arch Jones was tried by jury and convicted
in Tulsa County District Court, Case No. CF-2017-973,
of five counts of Sexual Abuse—Child Under 12, in
violation of 21 O.S.Supp.2012, § 843.5(F). In accordance

App.2a
with the jury’s recommendation the Honorable William
D. LaFortune, District Judge, sentenced Appellant to
forty years imprisonment on Counts 1, 2 and 4; thirty
years imprisonment on Count 3, and twenty-five
years imprisonment on Count 6. Judge LaFortune
ran the sentences for all five counts consecutively.
Appellant must serve 85% of his sentences before
becoming eligible for parole consideration. Appellant
appeals from these convictions and sentences.
In Proposition Two, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Cherokee Nation and the
crimes occurred within the boundaries of the Creek
Reservation. Pursuant to McGirt u. Oklahoma, 140
S. Ct. 2452 (2020), Appellant’s claim raises two separate questions: (a) his Indian status; and (b) whether
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore remanded
this case to the District Court of Tulsa County for an
evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to Appellant’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove
it has jurisdiction. The District Court was ordered to
determine whether Appellant has some Indian blood
and is recognized as an Indian by a tribe or the federal government. The District Court was further ordered
to determine whether the crimes in this case occurred
in Indian Country. In so doing, the District Court

App.3a
was directed to consider any evidence the parties provided, including but not limited to treaties, statutes,
maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence would
show with regard to the questions presented, the
parties may enter into a written stipulation setting
forth those facts upon which they agree and which
answer the questions presented and provide the
stipulation to the District Court. The District Court
was also ordered to file written findings of facts and
conclusions of law with this Court.
A status hearing was held in this case on September 25, 2020, before the Honorable Tracy L. Priddy,
District Judge. A written findings of fact and conclusions of law from that hearing was timely filed with
this Court. The record indicates that appearing before
the District Court on this matter were attorneys from
the Oklahoma Attorney General’s Office, the Tulsa
County District Attorney’s Office and counsel for
Appellant.
In its written findings of fact and conclusion of
law, the District Court stated that the parties have
stipulated that Appellant has a blood quantum of
29/64; that Appellant is an enrolled member of the
Cherokee Nation and was so at the time of the charged
crimes; that the Cherokee Nation is an Indian Tribal
Entity recognized by the federal government; the
verification for Appellant’s tribal enrollment and
blood quantum are attached to the written stipulation
submitted by the parties; and the crimes charged in
this case occurred within the Creek Reservation boundaries. The District Court attached as Exhibit 1 to its
findings of facts and conclusions of law a document

App.4a
entitled Agreed Stipulation signed by all counsel
reflecting these stipulations.
The District Court accepted and adopted the
stipulations made by the parties and concluded in its
findings of fact and conclusions of law that Appellant
has some Indian blood, that he is also recognized as
an Indian by a tribe and the federal government and
therefore Appellant is an Indian under federal law.
Finally, the District Court accepted the stipulation of
the parties that the crimes in this case occurred on
the Creek Reservation and, thus, found the crimes
occurred in Indian Country for purposes of federal
law.
On December 7, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted the
parties’ stipulations as discussed above and references
the District Court’s findings. The State contends in
its brief that should this Court find Appellant is
entitled to relief based on the District Court’s findings, this Court should stay any order reversing the
conviction for thirty (30) days so that the appropriate
authorities can review his case, determine whether it
is appropriate to file charges and take custody of
Appellant. Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions
of law are supported by the stipulations jointly made
by the parties on remand. We therefore find Appellant
has met his burden of establishing his status as an

App.5a
Indian, having an Indian blood quantum of 29/64 and
being a member of the Cherokee Nation. We further
find Appellant met his burden of proving the crimes
in this case occurred on the Creek Reservation and,
thus, occurred in Indian Country.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Appellant in
this matter.1 The Judgment and Sentence in this
case is hereby reversed and the case remanded to the
District Court of Tulsa County with instructions to
dismiss the case.2
DECISION
The Judgment and Sentence of the District
Court is REVERSED AND REMANDED WITH
INSTRUCTIONS TO DISMISS. The MANDATE
is not to be issued until twenty (20) days from the
delivery and filing of this decision.3

1 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical solution by
Congress. See Bosse v. State, 2021 OK CR 3, ___ P.3d ___
(Hudson, J., Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and Krafft v.
State, No. F-2018-340 (Okl.Cr., Feb. 25, 2021) (Hudson, J.,
Specially Concurs) (unpublished).
2 This resolution renders the other six propositions of error
raised in Appellant’s brief moot.
3 By withholding issuance of the mandate for twenty days, the
State’s request for time to determine further prosecution is
rendered moot.

App.6a
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
TRACY L. PRIDDY DISTRICT JUDGE
APPEARANCES AT TRIAL
Danny Joseph
Nicollette brandt
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Eric Grayless
First Asst. District Atty.
Tulsa County
500 South Denver Ave
Suite 900
Tulsa, OK 74103
Counsel for the State
Mike Hunter
Okla. Attorney General
Jennifer Crabb
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
APPEARANCES ON APPEAL
Jeremy Stillwell
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant

App.7a
Mike Hunter
Okla. Attorney General
Keeley L. Miller
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
OPINION BY: HUDSON, J.
Kuehn, P.J.: Concur
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Concur in Results

App.8a
LUMPKIN, JUDGE
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S.Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.4
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

4 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered out
among the whites and they have no reservation, and
they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.10a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice
Roberts and Justice Thomas eloquently show the
Majority’s mischaracterization of Congress’s actions
and history with the Indian reservations. Their dissents
further demonstrate that at the time of Oklahoma
Statehood in 1907, all parties accepted the fact that
Indian reservations in the state had been disestablished
and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any
disrespect to our Federal-State structure. I simply
believe that when reasonable minds differ they must
both be reviewing the totality of the law and facts.

App.11a
LEWIS, JUDGE, CONCURRING IN RESULTS
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.12a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
JEFFERY ARCH JONES,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Tulsa County District Court Case No. CF-2017-973
Court of Criminal Appeals Case No. F-2017-1245
Before: Tracy L. PRIDDY, District Judge.
FINDINGS OF FACTS AND
CONCLUSIONS OF LAW
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 21, 2020. Danny Joseph appeared
on behalf of Appellant, Jeffery Arch Jones, whose
appearance was waived. Assistant Attorney General
Jennifer Crabb appeared for Appellee. Tulsa County
First Assistant District Attorney Erik M. Grayless

App.13a
also appeared. An evidentiary hearing was not held
pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues
to be determined by this Court.
The Appellant, in his Brief-In-Chief asserted a
claim that the District Court lacked jurisdiction to
try him as he is a citizen of the Cherokee Nation and
the crime occurred within the boundaries of the
Creek [Nation] Reservation. Appellant’s claim raises
two questions: (a) his Indian status, and (b) whether
the crime occurred in the Creek [Nation] Reservation.
These issues require fact-finding to be addressed by
the District Court per the OCCA Order Remanding.
I. Jeffery Arch Jones’s Status as an Indian
To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Appellant has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact
1. Jeffery Arch Jones is the named Defendant/
Appellant in the above-entitled matter.
2. The parties hereto stipulated that Mr. Jones
has a blood quantum of 29/64.2

1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81 (10th Cir.
2001). Generally Goforth v. State, 1982 OK CR 48, ¶6, 644 P.2d
114, 116.
2 Exhibit 1, Agreed Stipulation 1A.

App.14a
3. The parties hereto stipulated that Mr. Jones
is a citizen of the Cherokee Nation as of March 18,
2004 and was so at the time of the crimes.3
4. The parties hereto stipulated that the Cherokee
Nation is an Indian Tribal Entity recognized by the
federal government.4
5. The parties hereto stipulated that the verification for Mr. Jones’s tribal enrollment and blood
quantum are attached to this stipulation and the
parties agree they should be admitted into the record
of this case.5
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The
Court adopted the Agreed Stipulation including the
attached documentation of Appellant’s blood quantum
and citizenship in the Cherokee Nation filed by the
parties on September 25, 2020 and made findings of
fact thereon. Jeffery Arch Jones is the named Defendant/Appellant in this matter and has a Cherokee blood
quantum of 29/64. Although the term “Indian” is not
statutorily defined and various terms such as “sufficient”6, “substantial”7, “significant percentage of”8 or
3 Exhibit 1, Agreed Stipulation 1B.
4 Exhibit 1, Agreed Stipulation IC.
5 Exhibit 1, Agreed Stipulation 1D.
6 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
7 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
8 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

App.15a
“some”9 have been used by courts in an attempt to
define the quantity of Indian Blood required to satisfy
this inquiry, the OCCA mandate ordered this Court
to determine “whether the Appellant had some
Indian blood.”10 Thus, according to the term used by
the OCCA in its Order, this Court concludes Jeffery
Arch Jones, the named Defendant/Appellant, had
some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted the
Agreed Stipulation including the attached documentation of Appellant’s blood quantum and citizenship
in the Cherokee Nation and made findings of fact
thereon. Jeffery Arch Jones has been recognized as a
citizen of the Cherokee Nation since March 18, 2004
and was recognized as a citizen of the Cherokee Nation
at the time of the offenses. Finally, the Cherokee
Nation is an Indian Tribal Entity recognized by the
federal government. Therefore, Jeffery Arch Jones
was recognized as an Indian by a tribe or the federal
government.
Having answered both inquiries in the affirmative,
this Court concludes Jeffery Arch Jones is an Indian.
II. Whether the Crime Occurred
in Indian Country
The OCCA further ordered the District Court to
determine whether the crime occurred within the

9 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).
10 Order Remanding for Evidentiary Hearing August 21, 2020.

App.16a
boundaries of the Creek Reservation, referred to as
Indian Country.11 The Court finds as follows:
Findings of Fact
1. The parties hereto stipulated that the crimes
in this case occurred within the Creek reservation
boundaries.12
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the Agreed Stipulation and made
findings of fact thereon. Although, the location(s) of
the crimes of sexual abuse — child under 12 was not
included as a stipulation by the parties, Appellant’s
brief identifies the address as 2321 South First Street
in Broken Arrow.13 The parties agreed that the location
where the crimes occurred were within the Creek
Reservation boundaries. These boundaries were established through a series of treaties between the Creek
Nation and the United States, and are explicitly recognized as a reservation defined by 18 U.S.C. § 1151(a).
This Court concludes that the crimes for which Defendant/Appellant was convicted occurred within the Creek
[Nation] Reservation. Based upon the Supreme Court’s
ruling in McGirt v. Oklahoma, 140 S.Ct. 2452, 207
L.Ed.2d 985 (2020), the Creek Nation Reservation is
Indian Country.

11 McGirt v. Oklahoma, 140 S.Ct. 2452 (2020); 18 U.S.C. §§ 1152,
1153.
12 Exhibit 1, Agreed Stipulation 2A.
13 Brief of Appellant, April 23, 2018, p. 10

App.17a
WHEREFORE, this Court finds that Jeffery
Arch Jones is an Indian and the crimes for which he
was convicted occurred in Indian Country for purposes
of the General Crimes Act, 18 U.S.C. § 1152 and the
Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 12th day of
November, 2020.
/s/ Tracy L. Priddy
District Judge

App.18a
AGREED STIPULATION
(SEPTEMBER 25, 2020)
IN THE DISTRICT COURT OF TULSA COUNTY
STATE OF OKLAHOMA
________________________
JEFFERY ARCH JONES,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. F-2017-1245, CF-2017-973
The Oklahoma Court of Criminal Appeals (OCCA)
remanded this matter for an evidentiary hearing
pursuant to the recent decision in McGirt v. Oklahoma,
140 S.Ct. 2452 (2020), to determine Mr. Jones’s (a)
Indian status and (b) whether the crime occurred on
the Creek Reservation. The parties have reached the
following stipulations:
1.

Regarding the status of the Appellant:
A.

Mr. Jones has a blood quantum of 29/64.

B.

Mr. Jones is a citizen of the Cherokee
Nation as of March 18, 2004 and was so
at the time of the crimes.

App.19a

2.

C.

The Cherokee Nation is a Indian Tribal
Entity recognized by the federal government.

D.

The verification for Mr. Jones’s tribal
enrollment and blood quantum are
attached to this stipulation and the
parties agree they should be admitted
into the record of this case.

Regarding the location of the crime:
A.

The crimes in this case occurred within
the Creek reservation boundaries.

The parties therefore request that this Court
accept the stipulations.
Respectfully submitted,
/s/ Danny Joseph, No. 32812
Nicollette Brandt, No. 30996
General Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Jennifer Crabb, No. 20546
Oklahoma Attorney General’s Office
Assistant Attorneys General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921

App.20a
/s/ Erik Grayless, No. 21197
First Assistant District Attorney
Tulsa County District Attorney’s Office
500 South Denver Ave, #900
Tulsa, OK 74103
(918) 596-4805

App.21a
LETTER FROM CHEROKEE NATION
(SEPTEMBER 9, 2020)
CHEROKEE NATION
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 1533
Tahlequah, OK 74465
918-453-5000
________________________________
Sara Hill
Attorney General
To Whom It May Concern:
This letter shall verify that Jeffery Arch Jones,
born February 16 1990, is a registered citizen of the
Cherokee Nation as of March 18, 2004. His blood
quantum is 29/64, dated October 23, 1997.
The response in this letter is based on information
exactly as provided by the requesting party. Any
incorrect or incomplete information may invalidate
the above determination. Cherokee Nation can only
confirm citizenship and blood degree for Cherokees.
It is possible for the individual to be a member of
another tribe and/or to have some degree of Indian
blood from another tribe.
This letter does not reflect a finding of eligibility
under the Federal Indian Child Welfare Act, 25 U.S.C.
§ 1901 et seq., (“ICWA”). Per 25 U.S.C. § 1912(a) legal
notice regarding an Indian child under ICWA must
be sent to Cherokee Nation Indian Child Welfare, PO
Box 948, Tahlequah, OK 74465.

App.22a
If you have questions regarding this determination,
please email CNOAG@cherokee.org or call the Cherokee
Nation Office of the Attorney General at (918) 4535262.

App.23a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JEFFERY ARCH JONES,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2017-1245
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice Presiding Judge., Gary L.
LUMPKIN, Judge., Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Jeffery Arch Jones was tried by jury and convicted
in Tulsa County District Court, Case No. CF-2017-973,
of five counts of Sexual Abuse—Child Under 12, in
violation of 21 O.S.Supp.2012, § 843.5(F). In accordance
with the jury’s recommendation the Honorable William
D. LaFortune, District Judge, sentenced Appellant to

App.24a
forty years imprisonment on Counts 1, 2 and 4; thirty
years imprisonment on Count 3, and twenty-five years
imprisonment on Count 6. Judge LaFortune ran the
sentences for all five counts consecutively. Appellant
must serve 85% of his sentences before becoming
eligible for parole consideration. Appellant appeals
from these convictions and sentences.
In Proposition Two, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Cherokee Nation and the
crimes occurred within the boundaries of the Creek
Reservation.
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Appellant’s claim raises two separate questions: (a) his Indian status and (b) whether
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Tulsa County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal status
as an Indian and as to the location of the crimes in
Indian Country, the burden shifts to the State to prove
it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall

App.25a
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crimes occurred on the Creek
Reservation. In making this determination the District Court should consider any evidence the parties
provide, including but not limited to treaties, statutes,
maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.

1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.26a
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief in Chief, filed April 23, 2018; and
Appellee’s Response Brief, filed August 3, 2018. The
present order renders MOOT any request made to
date for supplemental briefing by either party in this
case as well as any request to file an amicus brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.

App.27a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

